                            SOCIAL SECURITY
                            Office of the Inspector General


                                    January 14, 2010


The Honorable George V. Voinovich
United States Senate
Washington, D.C. 20510

Dear Senator Voinovich:

In a June 19, 2009 letter, you asked that we review hearing offices whose daily
disposition rates fell below the national average. Specifically, you requested that we
(1) determine why the administrative law judges in these hearing offices had productivity
rates that lagged behind other offices nationwide; and (2) identify what steps might be
taken to remedy the situation.

I appreciate the opportunity to share our insights on this important matter, and I am
pleased to provide you the enclosed report. The report addresses your concerns and
highlights various facts pertaining to the issues raised in your letter. The report also
provides information regarding lower-producing administrative law judges identified in a
prior review conducted by my office. To ensure the Social Security Administration is
aware of the information provided to your office, we are forwarding a copy of this report
to the Agency.

If you have any questions concerning this matter, please call me, or have your staff
contact Misha Kelly, Congressional and Intra-Governmental Liaison, at (202) 358-6319.

                                                Sincerely,




                                                Patrick P. O’Carroll, Jr.
                                                Inspector General

Enclosure

cc:
Michael J. Astrue




              SOCIAL SECURITY ADMINISTRATION      BALTIMORE, MD 21235-0001
CONGRESSIONAL RESPONSE
       REPORT

Hearing Office Disposition Rates

          A-07-10-21015




          January 2010
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                                                Background
OBJECTIVE
The objective of our review was to address the request of Senator George V. Voinovich
regarding hearing office disposition rates. Specifically, our review focused on identifying
factors that affected the performance of Office of Disability Adjudication and Review
(ODAR) hearing offices whose daily disposition rates fell below the national average.

BACKGROUND
ODAR is responsible for holding hearings and issuing decisions as part of the Social
Security Administration’s (SSA) process for determining whether a person may receive
benefits. ODAR directs a nation-wide field organization staffed with administrative law
judges (ALJ) who conduct impartial hearings and make decisions on appealed
determinations involving Retirement, Survivors, and Disability Insurance benefits as well
as Supplemental Security Income. At the time of our review, there were 142 ODAR
hearing offices nationwide.

SSA’s disability programs have grown significantly since 2002 because aging baby
boomers have begun reaching their most disability-prone years, and the economy has
taken a downturn. This growth has resulted in a backlog of disability cases. The
number of cases awaiting a decision from an ALJ has risen from over 463,000 at the
end of Fiscal Year (FY) 2002 to over 722,000 at the end of September 2009.

On October 31, 2007, Chief ALJ Frank Cristaudo issued a memorandum that identified
expectations regarding the services that ALJs provide to the public. Most notably, he
asked ALJs to issue 500 to 700 legally sufficient decisions each year, act on a timely
basis, and hold scheduled hearings unless there is a good reason to postpone or
cancel.

In a June 19, 2009 letter, Senator Voinovich requested we review hearing offices whose
daily disposition rates fell below the national average. Specifically, the Senator
requested we determine why the ALJs in those hearing offices had productivity rates
that lagged behind other hearing offices and identify what steps might be taken to
remedy the situation.

To address Senator Voinovich’s request, we conducted interviews at hearing offices in
9 of SSA’s 10 regions. We selected these hearing offices because they had disposition
rates per day per ALJ below the national average of 2.31 for FY 2009 through June.
Table 1 identifies the hearing offices we visited and the average dispositions per day




Hearing Office Disposition Rates (A-07-10-21015)                                         2
per ALJ for each office.1 At these hearing offices, we interviewed a total of 14 ALJs,
9 Hearing Office Chief ALJs (HOCALJ), 9 Hearing Office Directors, 9 Senior Attorney
Advisors, and 9 Senior Case Technicians.2,3

                                             Table 1
                             Selected Hearing Offices by SSA Region
                                                                           Average
                           Region            Hearing Office            Dispositions Per
                                                                         Day Per ALJ
                            Boston            New Haven, CT                  1.88
                           New York            Queens, NY                    1.51
                          Philadelphia       Washington, D.C.                2.10
                            Atlanta             Tampa, FL                    1.93
                            Chicago           Columbus, OH                   1.47
                             Dallas          New Orleans, LA                 2.11
                          Kansas City         Springfield, MO                2.02
                            Denver              Fargo, ND                    2.18
                        San Francisco          Oakland, CA                   1.47
                           National Average Dispositions Per Day Per ALJ = 2.31


We also followed up on the performance of 14 ALJs identified in a prior review as lower
producers.4 To do so, we conducted interviews with the HOCALJs responsible for
managing these 14 ALJs.




1
 See Appendix B for the scope and methodology of our review and Appendix D for the FY 2009
dispositions per day per ALJ for all 142 ODAR hearing offices.
2
  We selected 18 ALJs to be interviewed. However, four ALJs declined to be interviewed for reasons not
identified; therefore, some offices may have been impacted by a factor, but it was not identified.
3
    See Appendix C for the typical organization of a hearing office.
4
 SSA OIG, Congressional Response Report, Administrative Law Judge and Hearing Office Performance
(A-07-08-28094), August 2008.


Hearing Office Disposition Rates (A-07-10-21015)                                                         3
                                                          Results of Review
At the 9 hearing offices included in our review, we interviewed a total of 14 ALJs,
9 HOCALJs, 9 Hearing Office Directors, 9 Senior Attorney Advisors, and 9 Senior Case
Technicians. We also analyzed hearings data from ODAR’s Case Processing and
Management System (CPMS).

Our review identified various factors that impacted hearing office productivity.
Specifically, we found ALJs had control over certain factors that affected hearing office
productivity—motivation and work ethic, case review time, and hearings management.
Further, we identified factors related to support staff that can also affect hearing office
productivity—staff quantity, quality, and composition.

We also followed up on the performance of 14 ALJs identified in a prior review as lower
producers. We found the performance of most of these ALJs had either minimally
improved or not improved at all. In fact, the FY 2009 average dispositions per day for
all 14 ALJs were below the national average of 2.31 dispositions per day.

We also found that the HOCALJs, who were responsible for managing ALJ
performance, had taken actions to address individual ALJ factors that impact hearing
office performance. These actions primarily included mentoring and counseling.
However, when these actions were not successful, Agency management rarely took
performance-based disciplinary action against ALJs.

ADMINISTRATIVE LAW JUDGE FACTORS
We found certain factors within an ALJ’s control that can impact hearing office
performance and lead to daily disposition rates below the national average. These
factors include motivation and work ethic, case review time, and hearings management.

MOTIVATION AND WORK ETHIC

Our interviews disclosed ALJ motivation and work ethic can impact hearing office
performance and lead to disposition rates below the national average. Specifically,
seven of the nine HOCALJs we interviewed cited qualities, such as lack of ambition and
low personal expectations, as reasons some ALJs consistently process fewer
dispositions than expected.5 One HOCALJ stated, “While some ALJs are self-directed
and intrinsically motivated to do their best, certain others are content to accomplish the
minimum required to get by on a daily basis, whether it meets the production goals or
not.”



5
 See Appendix E for hearing offices where motivation and work ethic were identified as factors that may
impact productivity.


Hearing Office Disposition Rates (A-07-10-21015)                                                          4
CASE REVIEW TIME

Our interviews disclosed the time ALJs spend on case review before the hearing can
impact hearing office performance and lead to disposition rates below the national
average.7 Seven of the nine HOCALJs we interviewed expected case review to take an
average of 1 hour or less. However, seven of the
ALJs we interviewed spent more than 1 hour                          Table 2
reviewing a case before a hearing (see Table 2).8 In    Time Spent Reviewing Cases
fact, two ALJs stated it could take up to 4 hours.       Length of Case      Number of
                                                                             Review           ALJs6
Five of the nine HOCALJs stated some ALJs spend               Up to 1 hour         6
too much time on case review because they are              More than 1 hour,
                                                                                   2
inefficient or over-develop cases, which results in      but less than 2 hours
case review exceeding the 1-hour expectation. SSA           2 hours or more        5
does not collect information on case review time by ALJ; therefore, our analysis of this
factor was limited to our interviews. Without empirical data on case review time for all
ALJs, we do not know the percentage of ALJs who spend 1 hour or less on case review
and whether this expectation is reasonable.

HEARINGS MANAGEMENT

According to our interviews, ALJ management of hearings can impact hearing office
performance. Specifically, the number of hearings scheduled and the length of the
hearings can lead to disposition rates below the national average.

Hearings Scheduled

Low disposition rates can result when ALJs do not schedule enough hearings.9 Our
interviews disclosed that ALJs were not scheduling the number of hearings expected by
HOCALJs. Specifically, 5 of the 9 HOCALJs stated that they expected ALJs to
schedule between 12 and 15 hearings per week. However, 7 of the 14 ALJs we
interviewed indicated that they typically only scheduled from 8 to 10 hearings per week.
In FY 2009, hearing offices nationwide scheduled an average of 2.57 hearings daily per
ALJ. However, 12 of the 14 ALJs we interviewed scheduled between 1.60 and 2.50 per
day—below the national average.


6
    One ALJ did not specify the length of time it took to review a case before a hearing.
7
 ALJs review cases before scheduling hearings to become familiar with the facts of the case and
determine the need for additional evidence or expert opinions. See Hearings, Appeals, and Litigation
Law Manual (HALLEX), Chapter I-2-5-30.
8
 See Appendix E for the five hearing offices where case review time was identified as a factor that may
impact productivity for the seven ALJs.
9
  See Appendix E for hearing offices where the number of hearings scheduled was identified as a factor
that may impact productivity.


Hearing Office Disposition Rates (A-07-10-21015)                                                          5
Furthermore, in FY 2009, the number of hearings scheduled daily per ALJ was below
the national average of 2.57 in seven of the nine hearing offices where we conducted
interviews.10 The average number of hearings scheduled daily in these seven hearing
offices was between 1.33 and 2.37. Comparatively, when reviewing the number of
hearings scheduled daily by nine of the highest-producing hearing offices, we found
eight offices were at or above the national average of 2.57.11 The average number of
hearings scheduled daily in these eight hearing offices was between 2.57 and 3.50.
Therefore, the hearing offices that scheduled more hearings issued more dispositions
(see Chart 1).
                                                     Chart 1: Hearings Scheduled Daily Per ALJ


                                          4.00
           Number of Hearings Scheduled




                                          3.00



                                          2.00



                                          1.00
                                                 1    2      3         4         5          6   7   8   9
                                                                           Hearing Office

                                                                 Higher-Producing Hearing Offices
                                                                 Lower-Producing Hearing Offices
                                                                 National Average


Currently, individual ALJs inform hearing office staff of the number of hearings they
would like to schedule in a given timeframe. However, SSA proposed a change that will
allow hearing office staff, rather than the individual ALJ, to set the time and place for a
hearing. The intent of this change is to give hearing offices greater flexibility in
scheduling hearings and is part of SSA’s plan to increase efficiency in the hearing
process and reduce the number of pending hearing requests.12

10
 We obtained data for the number of hearings scheduled daily per ALJ from the Caseload Analysis
Report on hearings scheduled and held for FY 2009 through June in ODAR’s CPMS.
11
  For comparative purposes, we identified the highest-producing hearing office in each of the same nine
SSA regions where we conducted interviews with hearing offices that had disposition rates per day below
the national average. The productivity time periods for comparison were the same - FY 2009, through
June - based on dispositions per day per ALJ.
12
   SSA, Setting the Time and Place for a Hearing before an Administrative Law Judge; Notice of proposed
rulemaking, 73 Federal Register 218, pp. 66564 – 66568 (November 10, 2008). As of December 2009,
the final rule had not been published in the Federal Register. The final rule will become effective 60 days
after the date published in the Federal Register.


Hearing Office Disposition Rates (A-07-10-21015)                                                            6
Length of Hearings

We found the length of hearings can impact hearing office performance and lead to
disposition rates below the national average. Our interviews revealed eight of the nine
HOCALJs expected hearings in their office to last up to 1 hour. However, 5 of the
14 ALJs we interviewed stated the average length of their hearings was longer than
1 hour.13 One ALJ stated some hearings lasted as long as 3 hours. SSA does not
collect information on the length of hearings by ALJ; therefore, our analysis on this
factor was limited to our interviews.

SUPPORT STAFF FACTORS
We found the quantity, quality, and composition of support staff14 can negatively impact
hearing office performance, leading to disposition rates below the national average.15
ALJs are supported by staff who, among other things

         conduct initial case screening and preparation,
         maintain a control system for all hearing office cases,
         conduct pre-hearing case analysis,
         develop additional evidence,
         schedule hearings, and
         prepare notices and decisions for claimants.16

QUANTITY

Seven of the nine HOCALJs we interviewed stated low support staff ratios impacted
hearing office performance.17 At the end of FY 2008, six of the nine hearing offices
where we conducted interviews had staff ratios below the desired 4.5 support staff to
every ALJ (see Table 3, yellow highlight).18 However, SSA hired additional support staff,

13
 See Appendix E for the four hearing offices where the length of hearings was identified as a factor that
may impact productivity for the five ALJs.
14
  SSA stated that is uses predictive modeling to determine the appropriate number and composition of
staff. SSA also stated that it uses benchmarks to monitor case processing.
15
  Our audit of Hearing Office Performance and Staffing, (A-12-08-28088) is addressing support staff
quantity and composition. We expect to issue the report in FY 2010.
16
     HALLEX, Chapter I-2-0-5 C. See Appendix C for the typical organization of a hearing office.
17
 See Appendix E for hearing offices where the quantity of support staff was identified as a factor that
may impact productivity.
18
  According to the Commissioner of Social Security, SSA is striving to achieve a national average ratio of
4.5 support staff to every ALJ. Statement of Michael J. Astrue, Commissioner of Social Security,
testimony before the House Committee on Ways and Means, March 24, 2009. According to SSA, it is
working toward the staffing ratio goal of 4.5 support staff to every ALJ. However, flexibility is required
because some offices do not need a 4.5 ratio to operate productively.


Hearing Office Disposition Rates (A-07-10-21015)                                                            7
and only two of the nine hearing offices fell below the desired ratio by the end of FY 2009
(see Table 3, green highlight). Therefore, the lower number of support staff early in the
year may have negatively impacted hearing office productivity. These staffing increases
should contribute to an increase in productivity. However, new employees will not have
an immediate impact on workloads, as hiring and fully training new employees is a
lengthy and resource-intensive process.

                                              Table 3
                                    Hearing Office Staff Ratios19
               Hearing Office              September 27, 2008              September 30, 2009
               New Haven, CT                         5.00                            5.60
                 Queens, NY                          3.88                            5.29
               Washington, D.C.                      5.00                            5.00
                  Tampa, FL                          4.20                            5.07
                Columbus, OH                         3.71                            3.66
               New Orleans, LA                       3.67                            4.10
                Springfield, MO                      4.76                            4.63
                  Fargo, ND                          4.20                            5.44
                 Oakland, CA                         4.29                            5.38

In addition to hiring support staff, centralized pulling and writing units can assist hearing
offices in meeting their staffing and workload goals. The purpose of the centralized
units is to process more claims with less staff and increase productivity. These units
can supplement staffing and space shortages in hearing offices while providing
management with greater flexibility to address unforeseen workload changes.

QUALITY

Our interviews revealed the quality of support staff can impact hearing office
performance. Specifically, nine ALJs expressed concerns with the quality of the staff in
their hearing offices.20 For example, one ALJ said, “Sometimes the decisions are
written so badly [I want] to scream.” Another ALJ stated the writers in the hearing office
leave out doctor’s opinions and use incorrect numbers and dates.

Further, we found the quality of support staff was a major concern in one hearing office.
In fact, five of the six interviews we conducted in that hearing office disclosed problems
with the quality of staff. Specifically, one of the interviewees stated that hearing office
productivity is impacted by the quality of support staff, not the quantity. However, it was
also stated that the quality of the support staff has improved because of the recent
hiring of four employees, who are hard-working and productive.




19
     ODAR, Division of Finance and Budget Analysis Bi-weekly Staffing Report.
20
  See Appendix E for the five hearing offices where the quality of support staff was identified as a factor
that may impact productivity for the nine ALJs.


Hearing Office Disposition Rates (A-07-10-21015)                                                              8
COMPOSITION

The composition of support staff can impact performance. In fact, five of the nine
HOCALJs stated the composition of support staff impacts hearing office productivity.21
For example, one HOCALJ stated, “It is challenging for the office to increase
productivity when the office is short on writing staff.” Further, another HOCALJ said, “A
lack of case pullers directly affects ALJ productivity.”22

In January 2009, eight of the nine hearing offices where we conducted interviews had
decision writer staff ratios below the desired 1.5 decision writers to every ALJ (see
Table 4, yellow highlight).23, 24 However, SSA has hired additional decision writers, and
only one of the nine hearing offices had fallen below the desired ratio by the end of
FY 2009 (see Table 4, green highlight). Therefore, the lower number of decision writers
early in the year may have negatively impacted hearing office productivity. The
increase in decision writing staff should contribute to an increase in productivity.
However, new decision writers will not have an immediate impact on workloads, as
hiring and fully training new employees is a lengthy and resource-intensive process.

                                             Table 4
                                   Decision Writer Staff Ratios25
               Hearing Office                January 17, 2009            September 30, 2009
               New Haven, CT                        1.40                            1.80
                 Queens, NY                         1.38                            2.14
               Washington, D.C.                     1.00                            1.83
                  Tampa, FL                         1.53                            1.93
                Columbus, OH                        1.34                            1.15
               New Orleans, LA                      1.10                            1.60
                Springfield, MO                     1.20                            1.83
                  Fargo, ND                         1.20                            1.80
                 Oakland, CA                        1.13                            1.63

Further, as previously discussed, ODAR has created centralized pulling and writing
units. These units can help expand the skill sets available to hearing offices and further
assist in processing workloads.



21
  See Appendix E for hearing offices where the composition of support staff was identified as a factor
that may impact productivity.
22
  To prepare a case file for a hearing, a case puller must organize documents chronologically, remove
duplicates, label and number all pertinent documents, and prepare an exhibit list.
23
     Before January 17, 2009, ODAR was not maintaining data on staff composition.
24
 A February 27, 2009 memorandum issued by the Deputy Commissioner for Disability Adjudication and
Review recommended the regions hire 1.5 decision writers per ALJ to address support staff composition.
25
     See Footnote 19.


Hearing Office Disposition Rates (A-07-10-21015)                                                         9
PRIOR REVIEW OF LOWER PRODUCERS
We found the performance of most of the 14 ALJs identified in our prior review as lower
producers had either minimally improved or not improved at all.26 We identified minimal
differences in the productivity of most of the ALJs when comparing their FY 2007 and
2009 disposition rates. As shown in Table 5, we determined the disposition rate

        increased for six ALJs (see green highlight),27
        remained the same for one ALJ (see light blue highlight), and
        decreased for seven ALJs (see yellow highlight).

                                            Table 5
                                      ALJ Disposition Rates
         ALJ     FY 2007 Dispositions       FY 2009 Dispositions             Change in
         No.          per Day 28                 per Day 29             Dispositions Per Day
          1                1.14                        2.15                       1.01
          2                0.69                        1.61                       0.92
          3                0.73                        1.09                       0.36
          4                0.71                        1.04                       0.33
          5                1.23                        1.52                       0.29
          6                0.63                        0.88                       0.25
          7                0.83                        0.83                       0.00
          8                1.31                        1.30                      (0.01)
          9                0.77                        0.71                      (0.06)
          10               0.71                        0.63                      (0.08)
          11               1.00                        0.92                      (0.08)
          12               0.76                        0.67                      (0.09)
          13               0.62                        0.44                      (0.18)
          14               1.55                        1.09                      (0.46)

In FY 2009, the average disposition rate per day for each of these 14 ALJs was below
the national average of 2.31. Our interviews with the HOCALJs responsible for

26
  SSA OIG, Congressional Response Report, Administrative Law Judge and Hearing Office Performance
(A-07-08-28094), August 2008. This review identified 19 fully available lower-producing ALJs in FY 2007.
However, five of these ALJs were not considered fully available in FY 2009. Therefore, the current review
only included the 14 fully available ALJs.
27
  ALJ numbers 1 and 2 had the greatest improvement in dispositions between FY 2007 and 2009. ALJ
number 1 improved because of performance discussions by the Regional Chief ALJ, mentoring by
another ALJ, and increased issuances of on-the-record decisions. ALJ number 2 improved because the
HOCALJ strongly encouraged the ALJ to process more cases.
28
  Dispositions per day for FY 2007 were calculated by dividing the number of dispositions for each ALJ in
FY 2007 by 249 (the number of workdays in FY 2007). The dispositions were obtained from a data
extract from ODAR’s CPMS.
29
  Dispositions per day for FY 2009 were calculated by dividing the number of dispositions for each ALJ in
FY 2009 through June by 186 (the number of workdays in FY 2009 through June). The dispositions were
obtained from ODAR.


Hearing Office Disposition Rates (A-07-10-21015)                                                      10
managing the 14 lower-producing ALJs disclosed that these ALJs had lower than
average dispositions per day because of the same factors already discussed in this
report—motivation and work ethic, case review time, hearings management, and
support staff.

ADDRESSING PRODUCTIVITY
                                                                                                  Table 6
According to the Commissioner of Social Security,                                      ALJs Reaching 500 Dispositions
an important bottom-line productivity measure is the                                                            Percentage of
                                                                                       Fiscal Year
percentage of ALJs who reach the minimum annual                                                                     ALJs
disposition expectation of 500 cases. As shown in                                              2007                  46
Table 6, the percentage of ALJs who reach the                                                  2008                  56
500-case disposition level is steadily increasing.30                                           2009                  71

Although according to SSA overall performance has improved, our review identified
ALJs who were not on track to reach the minimum annual disposition expectation.
Specifically, there were 48 ALJs considered fully available in the 9 hearing offices where
we conducted interviews.31 In FY 2009, and as a result of the factors presented in this
report, 37 of these ALJs had daily disposition rates below the 2.00 per day needed to
reach the minimum expectation of 500 (see Chart 2).32, 33
                                                        Chart 2: Dispositions by ALJs in
                                                           Selected Hearing Offices
                                         3.00

                                         2.50
                   Dispostions Per Day




                                         2.00

                                         1.50

                                         1.00

                                         0.50

                                         0.00
                                                1   5    9   13   17   21   25    29      33    37    41   45
                                                                   Fully Available ALJs
                                                                  Minimum Expectation Per Day
                                                                  Dispostions Per Day


30
 Statement of Michael J. Astrue, Commissioner of Social Security, testimony before the House
Committee on Ways and Means, November 19, 2009.
31
  These ALJs are considered fully available based on the employment classification for each ALJ as
obtained from ODAR for FY 2009 through June.
32
  FY 2009 dispositions per day for these ALJs were calculated by dividing the number of dispositions in
FY 2009 through June (obtained from ODAR) by 186 (the number of workdays in FY 2009 through June).
33
  To arrive at 2.00 dispositions per day, we divided the minimum expectation of 500 cases per year by
the standard of 250 working days in a FY.


Hearing Office Disposition Rates (A-07-10-21015)                                                                                11
Although these 37 ALJs were not on target to meet the goal of 500 dispositions
per year, and their performance was well below average, action had been taken against
only 1 of these ALJs based on performance during the period of our review.34 Instead
of taking disciplinary action based on performance, the HOCALJs in our review provided
ongoing performance-enhancement activities—such as repetitive mentoring,
counseling, and monthly performance meetings—for lower-performing ALJs.35

Federal regulations preclude SSA from rating an ALJ’s job performance.36 However,
Federal law permits agency action against ALJs, under
certain limited circumstances.37 In fact, the Merit         Actions SSA is Taking to
Systems Protection Board stated in the Matter of           Address   ALJ Productivity
Chocallo, “. . . an administrative law judge is not          Mentoring
immune from review for misconduct, incompetence or           Counseling
other failings in the performance of his/her duties . . .    Monthly Meetings to
                                                                Discuss Productivity
.t]he fact that an [ALJ] carries out his/her duties in a
hearing room rather than an office does not provide an impenetrable shield from
appraisal of performance.”38

One HOCALJ we interviewed stated, “Everything that can be done to address [the
ALJ’s] performance has been done, but nothing helps.” The HOCALJ further stated,
“The government does not make judges accountable for their performance. Action has
to be taken in order to solve the problem.” Another HOCALJ acknowledged that an ALJ
had been mentored by seven different ALJs since 2005. However, the ALJ’s
performance had not improved.




34
  This action was due to the ALJ’s failure to process assigned work timely and resulted in the issuance of
a directive to complete cases within a specified timeframe.
35
  According to SSA, the minimum annual disposition expectation of 500 cases is a goal not a quota.
Therefore, disciplinary action will not be taken against an ALJ simply because they fail to meet the goal.
36
     5 C.F.R. §§ 930.206(a) and 930.211.
37
  An action may be taken against an ALJ appointed under section 3105 of tile 5 of the United States
Code by the agency in which the ALJ is employed only for good cause established and determined by the
Merit Systems Protection Board on the record after opportunity for hearing before the Board. 5 U.S.C. §
7521.
38
     Matter of Chocallo, 1 M.S.P.R. 605, 611. (1980).


Hearing Office Disposition Rates (A-07-10-21015)                                                         12
                                                               Conclusions
Interviews with HOCALJs, ALJs, and hearing office staff disclosed two factors that affect
hearing office performance—factors under ALJ control and factors that relate to support
staff. Factors under ALJ control included motivation and work ethic, case review time,
and hearings management. Support staff factors included quantity, quality, and
composition of the support staff. Since these same factors were identified in our
FY 2008 review, SSA needs to continue addressing them.

Through hiring, SSA has taken steps to address some of the support staff factors we
identified as affecting hearing office disposition rates. For example, we found SSA is
striving to achieve a national average ratio of 4.5 support staff to every ALJ. By the end
of FY 2009, only two of the nine hearing offices in our review had fallen below the
desired level.

Although SSA reports that overall ALJ performance has improved since FY 2007, there
are still a number of ALJs with an average disposition rate per day well below the
national average. As a result, many of these ALJs will not reach the minimum annual
disposition expectation of 500. Even though ALJs were performing at a level below
SSA’s expectation, SSA has not taken disciplinary actions against these ALJs. Rather,
SSA relies on the HOCALJs to continue to provide ongoing performance-enhancement
activities—such as mentoring, counseling, and monthly performance meetings.




Hearing Office Disposition Rates (A-07-10-21015)                                        13
                                            Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Hearing Office Organization
APPENDIX D – Fiscal Year 2009 Dispositions Per Day Per Administrative Law Judge
APPENDIX E – Factors That Impact Productivity




Hearing Office Disposition Rates (A-07-10-21015)
                                                                        Appendix A

Acronyms
    ALJ                 Administrative Law Judge

    CPMS                Case Processing and Management System

    FY                  Fiscal Year

    HALLEX              Hearings, Appeals, and Litigation Law Manual

    HOCALJ              Hearing Office Chief Administrative Law Judge

    ODAR                Office of Disability Adjudication and Review

    SSA                 Social Security Administration

    U.S.C.              United States Code




Hearing Office Disposition Rates (A-07-10-21015)
                                                                       Appendix B

Scope and Methodology
To address Senator Voinovich’s request related to hearing office disposition rates, we:

      Reviewed applicable Federal laws and regulations and pertinent parts of the
       Hearings, Appeals, and Litigation Law Manual related to administrative law judge
       (ALJ) hearings.

      Reviewed prior Office of the Inspector General, Government Accountability
       Office, and Social Security Advisory Board reports related to the ALJ hearings
       process.

      Obtained the National Ranking Report by ALJ Dispositions per Day per ALJ for
       Fiscal Year (FY) 2009 through June from the Office of Disability Adjudication and
       Review’s (ODAR) Case Processing and Management System.

      Identified the hearing office in each region with the lowest disposition rate per
       ALJ per day below the national average. We excluded any offices we visited
       while preparing our Congressional Response Report, Administrative Law Judge
       and Hearing Office Performance (A-07-08-28094). Region 10 did not have an
       office that met these criteria, so an office from this Region was not selected. For
       the selected hearing offices we:

       o Obtained the following information from ODAR for ALJs in each selected
         hearing office for FY 2009 through June.
          Number of Dispositions
          Average Processing Time in Days
          Employment Classification (NOTE: ALJs were classified as not fully
            available for such reasons as being newly hired, being a union
            representative, being on extended leave, retiring, or being a part-time
            ALJ.)




Hearing Office Disposition Rates (A-07-10-21015)                                        B-1
        o Interviewed 14 ALJs, 9 Hearing Office Chief ALJs (HOCALJ), and 27 hearing
          office staff members at 9 hearing offices nationwide.

               For each hearing office, we used the employment classification obtained
                from ODAR and identified the two fully available1 ALJs with the lowest
                disposition rate per ALJ per day. This resulted in 18 ALJs being selected
                to interview; however, 4 ALJs declined to participate.

               Interviewed the HOCALJs at the nine selected hearing offices.

               Interviewed 27 hearing office staff members at the selected hearing
                offices. Specifically, we interviewed nine Hearing Office Directors, nine
                Senior Case Technicians, and nine Senior Attorney Advisors.

       Identified 19 lower-producing ALJs from our Congressional Response Report,
        Administrative Law Judge and Hearing Office Performance (A-07-08-28094). For
        these ALJs, we:

        o Obtained the following information from ODAR for FY 2009 through June.
           The ALJ’s hearing office as of June 2009
           Number of Dispositions
           Average Processing Time in Days
           Employment Classification

        o Used the employment classification obtained by ODAR and identified the
          14 fully available ALJs.2

        o Interviewed the HOCALJ in the hearing offices of the 14 lower-producing
          ALJs to determine whether the ALJs’ productivity had improved and actions
          being taken to address the performance of these ALJs.

Our work was conducted at the Office of Audit in Kansas City, Missouri, and various
hearing offices nationwide from July through October 2009. We determined that the
data used in this report were sufficiently reliable given the review objective and their
intended use. We conducted our review in accordance with the President’s Council on
Integrity and Efficiency’s Quality Standards for Inspections.3



1
 Judges classified by ODAR as newly hired, union representative, on extended leave, retired, or being a
part-time judge were considered not fully available to issue dispositions.
2
 One ALJ retired, three ALJs were union representatives, and one ALJ was on administrative leave
pending disciplinary action; therefore, these ALJs were not fully available to issue dispositions.
3
  In January 2009, the President’s Council on Integrity and Efficiency was superseded by the Council of
the Inspectors General on Integrity and Efficiency, Inspector General Reform Act of 2008, Pub. L. No.
110-409 § 7, 5 U.S.C. App. 3 § 11.


Hearing Office Disposition Rates (A-07-10-21015)                                                      B-2
                                                                         Appendix C

Hearing Office Organization

                                   Hearing Office
                                     Chief ALJ


         ALJ          ALJ          ALJ             ALJ      ALJ       ALJ


                                   Hearing Office
                                     Director



                                       Group
                                     Supervisor



       Lead Case Technician
       Senior Case Technicians              Attorney Advisors           Senior Attorney
       Case Technicians                     Paralegal Analysts          Advisors



                                                   Hearing Office Systems Administrator
       Receptionist
       Case Intake Analyst
       Contact Representative
                                                               Administrative Assistant




Hearing Office Disposition Rates (A-07-10-21015)
                                                                                                                                                 Appendix D

Fiscal Year 2009 Dispositions Per Day
Per Administrative Law Judge
From September 27, 2008 through June 26, 2009, the 1,057 available administrative law
judges (ALJ) issued an average of 2.31 dispositions per day (see Table 1 on the
following page).1 The average disposition rates per ALJ per day by hearing office
ranged from a low of 1.28 to a high of 5.20, as shown in Chart D-1 and in Table D-1.2
For example, 4 of the 142 hearing offices had disposition rates ranging from 1.28 to 1.50.

                                                               Chart D-1: Dispositions Per Day Per ALJ
                                                                          by Hearing Office
    Number of Hearing Offices




                                20

                                15

                                10

                                5

                                0
                                                                                      0

                                                                                                0

                                                                                                         0

                                                                                                                  0
                                        0

                                                  0

                                                           0

                                                                    0

                                                                             0




                                                                                                                           0

                                                                                                                                    0

                                                                                                                                             0

                                                                                                                                                      0

                                                                                                                                                               0

                                                                                                                                                                        0
                                                                                            2 .3

                                                                                                      2 .4

                                                                                                               2 .5
                                      1 .5

                                               1 .8

                                                        1 .9

                                                                 2 .0

                                                                          2 .1

                                                                                   2 .2




                                                                                                                        2 .6

                                                                                                                                 2 .7

                                                                                                                                          2 .8

                                                                                                                                                   2 .9

                                                                                                                                                            3 .6

                                                                                                                                                                     5 .2
                                                                                           1-

                                                                                                    1-

                                                                                                             1-
                                 8-

                                             1-

                                                      1-

                                                               1-

                                                                        1-

                                                                                 1-




                                                                                                                      1-

                                                                                                                               1-

                                                                                                                                        1-

                                                                                                                                                 1-

                                                                                                                                                          1-

                                                                                                                                                                   1-
                                                                                      2.2

                                                                                                2.3

                                                                                                         2.4
                                1.2

                                         1.5

                                                  1.8

                                                           1.9

                                                                    2.0

                                                                             2.1




                                                                                                                  2.5

                                                                                                                           2.6

                                                                                                                                    2.7

                                                                                                                                             2.8

                                                                                                                                                      2.9

                                                                                                                                                               3.6
                                                                                          Daily Disposition Range

To identify factors that contribute to the lower-than-average disposition rates in
nine hearing offices, we conducted interviews with select hearing office staff. We
selected the hearing office in each Social Security Administration region that had the
lowest disposition rate per day per ALJ (see Table D-1, green highlight).3

1
 The Office of Disability Adjudication and Review’s (ODAR) monthly reporting cycle ends on the last
Friday of the month. Our reporting period consists of FY 2009 through June. Therefore, FY 2009 began
on September 27, 2008 and the month of June ended June 26, 2009. ODAR calculates the average
number of daily dispositions per ALJ by dividing the total number of dispositions by the total number of
ALJs available, which is then divided by the number of workdays in the reporting period.
2
 Average number of dispositions per day per ALJ as identified on the Case Processing and Management
System (CPMS) National Ranking Report by ALJ Dispositions Per Day Per ALJ for FY 2009 through
June.
3
 We excluded hearing offices that had been visited during our review Congressional Response Report,
Administrative Law Judge and Hearing Office Performance (A-07-08-28094), August 2008.


Hearing Office Disposition Rates (A-07-10-21015)                                                                                                                            D-1
Further, we conducted analysis at 14 hearing offices to determine whether the
productivity of lower-producing ALJs identified in our prior review had increased and
identified factors that impacted their performance (see Table D-1, yellow highlight).

                                        Table D-1
              ALJ Dispositions Per Day and Available ALJs by Hearing Office
                                                                Dispositions Per   Available
         Rank4           Hearing Office            Region
                                                                 Day Per ALJ5       ALJs6
            1      Ponce, PR                           2              5.20             0.81
            2      Mayaguez, PR                        2              3.56             0.57
            3      Jericho, NY                        2               3.51             5.38
            4      Harrisburg, PA                     3               3.42             6.33
            5      Greenville, SC                     4               3.11             7.93
            6      Seven Fields7                      3               2.88             6.13
            7      St Louis, MO                       7               2.81             8.19
            8      Albany, NY                          2              2.80             6.60
            8      Kingsport, TN                       4              2.80             7.64
            10     Bronx, NY                          2               2.78             6.53
            10     Flint, MI                           5              2.78             4.94
            10     Wilkes Barre, PA                   3               2.78             7.15
            13     Nashville, TN                      4               2.76             6.16
            14     Eugene, OR                         10              2.74             3.18
            15     Creve Coeur, MO                    7               2.73             9.33
            16     Los Angeles Downtown. CA           9               2.68             5.47
            17     Atlanta Downtown, GA               4               2.67            12.99
            18     Fort Smith, AR                      6              2.65             4.52
            18     Little Rock, AR                     6              2.65            11.28
            20     Wichita, KS                         7              2.62             6.75
            21     Columbia, SC                        4              2.61             7.70
            21     Tucson, AZ                         9               2.61             4.23
            23     Long Beach, CA                     9               2.60             5.75
            23     Spokane, WA                        10              2.60             3.78
            25     Pittsburgh, PA                      3              2.59             6.80
            26     Colorado Springs, CO               8               2.58             4.70
            26     Minneapolis, MN                    5               2.58            11.50
            28     Ft Lauderdale, FL                  4               2.57            10.49
            29     Grand Rapids, MI                   5               2.56             7.01

4
 ODAR ranked hearing offices 1 through 142 for dispositions per day per ALJ in FY 2009. The hearing
office with a rank of 1 had the highest dispositions per day per ALJ while the hearing office ranked
142 had the lowest dispositions per day per ALJ.
5
 Average number of dispositions per day per ALJ as identified on the CPMS National Ranking Report by
ALJ Dispositions Per Day Per ALJ for FY 2009 through June.
6
 Average number of ALJs available as identified on the CPMS Caseload Analysis Report for FY 2009 as
of the end of June 2009.
7
    The Seven Fields hearing office is in Mars, Pennsylvania.


Hearing Office Disposition Rates (A-07-10-21015)                                                  D-2
                                    Table D-1
          ALJ Dispositions Per Day and Available ALJs by Hearing Office
                                                     Dispositions Per   Available
      Rank4          Hearing Office         Region
                                                      Day Per ALJ5       ALJs6
        29     Jackson, MI                     4           2.56            7.37
        31     San Juan, PR                    2           2.55            8.16
        31     Shreveport, LA                  6           2.55            7.16
        33     Honolulu, HI                    9           2.54            0.93
        33     Oak Park, MI                    5           2.54            9.35
        35     Brooklyn, NY                    2           2.53           10.50
        36     Johnstown, PA                   3           2.52            3.84
        37     Alexandria, LA                  6           2.51            9.12
        37     Huntington, WV                  3           2.51            7.63
        37     Tulsa, OK                       6           2.51            8.87
        40     Charlotte, NC                   4           2.50           10.37
        40     Montgomery, AL                  4           2.50            8.99
        40     Raleigh, NC                     4           2.50           10.25
        43     Birmingham, AL                  4           2.48           13.83
        43     New York, NY                    2           2.48           11.78
        45     Orland Park, IL                 5           2.47            8.36
        46     Charleston, WV                  3           2.46            8.93
        46     Providence, RI                  1           2.46            3.78
        48     Evansville, IN                  5           2.44            5.03
        49     Paducah, KY                     4           2.43            3.67
        50     Fort Wayne, IN                  5           2.42            5.14
        50     Macon, GA                       4           2.42            7.70
        52     Philadelphia East, PA           3           2.41            7.56
        53     Albuquerque, NM                 6           2.38            8.09
        53     Dallas Downtown, TX             6           2.38           10.69
        53     Manchester, NH                  1           2.38            4.08
        53     Norfolk, VA                     3           2.38            5.33
        53     San Jose, CA                    9           2.38            4.43
        53     Syracuse, NY                    2           2.38            7.38
        53     West Des Moines, IA             7           2.38            5.86
        60     San Bernardino, CA              9           2.37            7.06
        61     Newark, NJ                      2           2.36            8.59
        62     Chattanooga, TN                 4           2.35            9.50
        62     Houston-Bissonnet, TX           6           2.35            8.30
        62     Mobile, AL                      4           2.35           11.12
        62     Tupelo, MS                      4           2.35            6.91
        66     McAlester, OK                   6           2.34            2.07
        66     San Francisco, CA               9           2.34            5.72
        68     Greensboro, NC                  4           2.32            8.72
        68     Metairie, LA                    6           2.32            6.54
        70     Elkins Park, PA                 3           2.31            8.46
        70     Stockton, CA                    9           2.31            5.75
        72     Los Angeles West, CA            9           2.30            6.20
        72     Phoenix, AZ                     9           2.30            8.75



Hearing Office Disposition Rates (A-07-10-21015)                                    D-3
                                    Table D-1
          ALJ Dispositions Per Day and Available ALJs by Hearing Office
                                                     Dispositions Per   Available
      Rank4          Hearing Office         Region
                                                      Day Per ALJ5       ALJs6
        72     Sacramento, CA                  9           2.30            8.71
        75     Hattiesburg, MS                 4           2.29            8.90
        75     Jacksonville, FL                4           2.29           10.04
        75     Lexington, KY                   4           2.29            8.88
        75     San Antonio, TX                 6           2.29           15.33
        79     Charlottesville, VA             3           2.27            4.15
        79     Savannah, GA                    4           2.27            7.75
        81     Billings, MT                    8           2.26            4.38
        81     Lansing, MI                     5           2.26            6.24
        81     Salt Lake City, UT              8           2.26            5.75
        84     Dallas North, TX                6           2.25           12.56
        84     Houston Downtown, TX            6           2.25            8.64
        84     Memphis, TN                     4           2.25            9.40
        87     Louisville, KY                  4           2.22            6.77
        88     Downey, CA                      9           2.21            4.19
        88     Springfield, MA                 1           2.21            5.23
        90     Atlanta North, GA               4           2.20            7.67
        90     Fort Worth, TX                  6           2.20            8.55
        90     Morgantown, WV                  3           2.20            5.88
        93     Middlesboro, KY                 4           2.19            2.52
        94     Fargo, ND                       8           2.18            4.75
        95     Las Vegas, NV                   9           2.17            2.75
        96     Voorhees, NJ                    2           2.16            6.75
        97     Charleston, SC                  4           2.15            8.12
        98     Boston, MA                      1           2.14           11.36
        98     Dover, DE                       3           2.14            3.75
        98     Hartford, CT                    1           2.14            4.90
        98     Orlando, FL                     4           2.14            9.04
        102    Florence, AL                    4           2.13            6.14
        102    Philadelphia, PA                3           2.13            7.69
        102    Roanoke, VA                     3           2.13            7.53
        105    Portland, ME                    1           2.12            4.96
        105    Santa Barbara, CA               9           2.12            2.75
        105    Seattle, WA                     10          2.12           12.19
        108    New Orleans, LA                 6           2.11            8.56
        109    Omaha, NE                       7           2.10            4.43
        109    Washington, DC                  3           2.10            4.44
        111    Detroit, MI                     5           2.09            9.63
        112    Knoxville, TN                   4           2.07            9.79
        113    Kansas City, MO                 7           2.06            9.60
        114    Denver, CO                      8           2.05            8.59
        114    Oak Brook, IL                   5           2.05            8.08
        116    Springfield, MO                 7           2.02            4.62
        117    Richmond, VA                    3           2.01            6.04



Hearing Office Disposition Rates (A-07-10-21015)                                    D-4
                                    Table D-1
          ALJ Dispositions Per Day and Available ALJs by Hearing Office
                                                     Dispositions Per   Available
      Rank4          Hearing Office         Region
                                                      Day Per ALJ5       ALJs6
        118    Indianapolis, IN                5           2.00            10.64
        118    Orange, CA                      9           2.00             7.19
        120    Buffalo, NY                     2           1.99            13.37
        121    San Rafael, CA                  9           1.98             4.21
        122    Peoria, IL                      5           1.97             7.37
        123    Baltimore, MD                   3           1.96             8.75
        123    Evanston, IL                    5           1.96             8.85
        125    Tampa, FL                       4           1.93            14.44
        126    Fresno, CA                      9           1.89             7.39
        127    New Haven, CT                   1           1.88             4.67
        127    Portland, OR                    10          1.88             7.54
        129    Dayton, OH                      5           1.86             5.50
        130    Cleveland, OH                   5           1.84            12.78
        131    Oklahoma City, OK               6           1.82            12.10
        132    Pasadena, CA                    9           1.78             5.44
        133    Milwaukee, WI                   5           1.75            10.51
        134    Chicago, IL                     5           1.66             9.28
        135    Cincinnati, OH                  5           1.65            10.01
        136    White Plains, NY                2           1.64             5.53
        137    Madison, WI                     5           1.63             2.00
        138    Queens, NY                      2           1.51             7.32
        139    Columbus, OH                    5           1.47             9.60
        139    Oakland, CA                     9           1.47             7.55
        141    Miami, FL                       4           1.40             8.10
        142    San Diego, CA                   9           1.28             8.64
               National                                    2.31         1,056.92




Hearing Office Disposition Rates (A-07-10-21015)                                    D-5
                                                                                                                 Appendix E


Factors That Impact Productivity
Our interviews with Hearing Office Chief Administrative Law Judges (ALJ), ALJs, and hearing
office staff disclosed factors that can negatively impact hearing office performance and can
lead to disposition rates below the national average. Table E-1 identifies the hearing offices
that may have been impacted by each factor.

                                        Table E-1
                Factors That May Have Impacted Hearing Office Productivity1
                                                     ALJ Factors                           Support Staff Factors
                   Hearing Office


                                    Motivation and



                                                     Case Review




                                                                                                                 Composition
                                     Work Ethic




                                                                   Scheduled

                                                                               Length of
                                                                    Hearings




                                                                               Hearings


                                                                                            Quantity



                                                                                                       Quality
                                                        Time




                    1                                                X           X                     X
                    2                  X                X            X           X          X          X         X
                    3                  X                                                    X                    X
                    4                  X                X            X                      X          X         X
                    5                  X                X            X           X          X          X         X
                    6                  X                                                    X
                    7                                   X            X                                           X
                    8                   X                            X           X          X
                    9                   X               X            X                      X          X




1
 Four ALJs declined to be interviewed; therefore, some offices may have been impacted by a factor, but it was
not identified.

Hearing Office Disposition Rates (A-07-10-21015)
                                 DISTRIBUTION SCHEDULE


Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions and
Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
